Supreme Court, U.S.
FILED

20-7664

JAN 2 6 2021

V

No.

OFFICE OF THE CLERK

USAP6 No. 20-1158
IN THE
SUPREME COURT OF THE UNITED STATES

JESSIE WILLIE GREEN
(Your Name)

— PETITIONER

vs.

Willis Chapman, Warden

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES SIX CIRCUIT COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JESSIE WILLIE GREEN
(Your Name)

3225 John Conley Drive
(Address)
Lapeer, MI. 48446
(City, State, Zip Code)

RECEIVED
APR - 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

RECEIVED
mar I 6 2021

■

IN THE
SUPREME COURT OF THE UNITED STATES
JESSIE WILLIE GREEN,
Petitioner,
v.

Case No.
USAPfi No. 20-1158

WILLIS CHAPMAN, WARDEN,
Respondent
Dana Nessel - Michigan Attorney General
Attorney for Respondent
Jessie Willie Green
Petitioner appearing propria persona
thumb Correctional Facility
3225 John Conley Drive
Lapeer, MI. 48446
PETITION FOR WRIT OF CERTIORARI
Now comes Jessie Willie Green, respectfully a citizen layman at law, of
the United States a resident of Wayne Gounty, Michigan Indigent litigant, asks
this honorable court to exercise its equitable, supervisory powers to grant me
relief for the following reasons:
I am currently unconstitutionally detained and imprisoned by Respondent,
Warden Willis Chapman at the Thumb Correctional Facility in Lapeer, Michigan
serving 7-15 years for, Unlawful Imprisonment, MCL 750.349b; 3-5 years for,
Assault by Strangulation, MCL 750.84(l)(b); 2-4 years for, Felonious Assault
with a Dangerous Weapon

MCL 750.82; and 2 years for, Felony Firearm, MCL

750.227b, to be served preceding and consecutive to count 1, 2, and 3, with
(97) days Jail credit goes toward the FF count only. I was convicted in the
THIRD JUDICIAL CIRCUIT COURT FOR IHE COUNTY OF WAYNE, STATE OF MICHIGAN,
h
before the honorable Michael M. Hataway Circuit Court No. 14-470 FH. On
January 23, 2014 sessions began in the case People v Jessie Willie Green. The
people were represented by Ms. Danielle Russo, p66492 assistant prosecutor; I

was

represented

by

Mr.

Ronald

McDuffie,

retained

p34858.

First,

on

01/02/2014., the defense filed an adjournment in the 36th Judicial District
Court where counsel moved the court to sequester the complainant because of
identification issues where the complainant did not identify me in either
police photographic-line-up display as she stated on the first line-up
document Quote 11 It looks like number (4) i'm not sure.'* but I was in the
number (6) position. Then the police did a second line-up where I was placed
in the number (4) position where the first person was in the prior line-up,
complainant wrote on the second line-up document Quote, “ I Think he is the
one who attacked me. " During this time and before the court denied the
request the prosecutor already had the complainant siting in the back of the
court room where she could view me outside of any posible subsequent corporal
line-up that was being requested, At preliminary hearing 01/17/2014., counsel
stated Quote " YOU HAVE A WITNESS HERE WHO REALLY HAS NOT IDENTIFIED MY
CLIENT. " See Vol. PE. Id. at [ 48. 16-25 ]. The District Court bound me over
for trial anyway! On 02/25/2014 * 9 counsel filed a Motion To Suppress the
Identification. Counsel raised the identification issues and they were denied
on 03/18/2014. Subsequently, I was convicted in a (3) day trial that began on
03/19/2014., I did not testify per counsel's advise that the state had not met
its minimum burden to charge. On 03/20/2014., in trial counsel moved to have
the governments endorsed police witness to testify but was arbitrarily denied
the fundamental U.S. sixth amendment right to confront the witnesses against
me and denied substantive due process of law specifically through the
confrontation clause. See Vol. II. 03/20/2014., [ 122-129 ] Id. at 126-129.
From these convictions I have exhausted all state remedies available to me
with regard to the U.S. fourth, fifth, sixth, and fourteenth amendments by
taking the following steps. I attempted to establish my meritorious claims not
limited to the above violations that rendered trial counsel ineffective to

ii

adequately prepare and present a defence because the prosecutor never although
requested for impeachment purposes, never provided the defense with a copy of
the exculpatory video-recorded evidence that emits any weapon being used in
this case and shows contrary to complainant1 s testimony

she could not have

seen her attackers face. In the video, that person had on a mask fully
covering their face and never removed it from start of the video to finish. My
efforts although diligent, in seeking to obtain my case files, materials, in­
camera inspection and evidentiary hearings to establish my claims, were
encumbered by state court arbitration and partly by appellate counsel Daniel
J. Rust,p-32856

lack of basic investigations and deficient performance to

raise the claims on direct appeal. Moreover, the trial court's failure to
substitute his appointment when I moved the court and showed that the need was
warranted because there was a

major breakdown in communication between

appellate counsel and myself damaging the relationship irreparably and counsel
would not withdraw.

( See Motion filed in the trial court 09/05/2014.,

Appendix (3)a.
(2). Pursuant to S. Ct. R. 10(a). where the United States Court of Appeals for
the Sixth Circuit has so far departed from accepted and usual course of
judicial proceedings, or sanctioned such a departure by the lower courts.
(3). The United States Court of Appeals for the Sixth Circuit has also decided
an important federal question in a way that conflict with relevant decision of
this court. And other Federal Circuit Courts.
(4). I was granted the right to proceed in Forma Pauperis on Appeal to the
<

United States Sixth Circuit Court of Appeals from the United States District
Court for the eastern District of Michigan on 01/31/2020.^ See ECF # 27.

iii.

TABLE OF CONTENTS

STATEMENT OF QUESTIONS PRESENTED

v.

TABLE OF AUTHORITIES

vi-vii.

STATEMENT OF JURISDICTION

1-2.

STATEMENT OF THE CASE

3-9.

ARGUMENTS

10-33.

APENDIXES

34-36.

Argument:
I.

I AM ENTITLED TO REVERSAL OF CONVICTION WHERE THE STATE COURT DENIED
ME SUBSTANTIVE DUE PROCESS OF LAW SPECIFICALLY THROUGH THE
CONFRONTATION CLAUSE BY NOT ALLOWING MY COUNSEL TO CALL THE
GOVERNMENT'S ENDORSED POLICE WITNESS TO TESTIFY IN TRIAL AND;

(a). RENDERED TRIAL COUNSEL INEFFECTIVE TO ADEQUATELY PRESENT A DEFENSE
AND;
(b). THE STATE COURTS UNREASONABLE DETERMINATION OF THE FACTS TO NOT FIND
APPELLATE COUNSEL INEFFECTIVE FOR NOT RAISING THESE CLAIMS ON DIRECT
APPEAL AND NOT ADEQUATELY COMMUNICATING WITH HIS CLIENT.
II. I AM ENTITLED TO RELIEF WHERE THE FEDERAL CIRCUIT COURT HAS SO FAR
DEPARTED FROM ACCEPTED AND USUAL COURSE OF JUDICIAL PROCEEDINGS, OR
SANCTIONED SUCH A DEPARTURE BY A LOWER COURT WHO'S DECISIONS
CONFLICT WITH RELEVANT DECISION OF THIS COURT.
III. I AM ENTITLED TO RELIEF WHERE ALTHOUGH I HAD AN OPPORTUNITY TO RAISE
MY FOURTH AND FOURTEENTH AMENDMENT CLAIMS OF THE RIGHT TO BE SECURE
IN MY PERSON FREE FROM UNREASONABLE SEIZURE AND HAVE DUE PROCESS AND
EQUAL PROTECTION UNDER THE LAW, PRESENTATION OF THE CLAIMS WAS
FRUSTRATED BY STATE COURTS MECHANISMS AND UNREASONABLE DETERMINATION
OF THE FACTS IN LIGHT OF THE EVIDENCE PRESENTED THAT I WAS NOT
POSITIVELY IDENTIFIED IN A POLICE LINE-UP DISPLAY NECESSARY TO THE
FINDING OF PROBABLE CAUSE TO CHARGE.
(a). I AM ENTITLED TO RELIEF WHERE THE PROSECUTION DENIED ME DUE PROCESS
OF LAW BY NOT PROVIDING ME WITH A COPY OF EXCULPATORY VIDEORECORDED EVIDENCE AND} UNTIMELY DISCLOSURE^ AND ;
(b). BY NOT PROVIDING ME WITH A COPY RENDERED MY COUNSEL INEFFECTIVE TO
ADEQUATELY PREPARE AND PRESENT A DEFENCE.

iv.

QUESTIONS PRESENTED

I.

IS THE PETITIONER ENTITLED TO REVERSAL OF OONVICTION WHERE THE
STATE OOURT ARBITRARILY DENIED ME SUBSTANTIVE DUE PROCESS OF
LAW SPECIFICALLY THROUGH THE CONFRONTATION CLAUSE BY NOT
ALLOWING DEFENSE COUNSEL TO CALL THE GOVERNMENT'S POLICE
WITNESS TO TESTIFY IN TRIAL AND;

(a).

DID THAT RENDER TRIAL OOUNSEL INEFFECTIVE TO ADEQUATELY
PRESENT A DEFENSE THAT WOULD PROVIDE A FAIR ADVERSARIAL
TESTING PROCESS THAT CAN BE RELIED UPON TO PRODUCE JUST
RESULTS AND;

(b).

IS IT AN UNREASONABLE DETERMINATION OF THE FACTS FOR THE STATE
OOURT TO NOT FIND APPELLATE OOUNSEL INEFFECTIVE FOR NOT
RAISING THESE CLAIMS ON DIRECT APPEAL AND NOT ADEQUATELY
COMMUNICATING WITH HIS CLIENT.

II.

IS THE PETITIONER ENTITLED TO RELIEF WHERE THE FEDERAL CIRCUIT
COURT HAS SO FAR DEPARTED FROM ACCEPTED AND USUAL COURSE OF
JUDICIAL PROCEEDINGS, OR SANCTIONED SUCH A DEPARTURE BY A
LOWER OOURT WHO'S DECISION CONFLICTS WITH RELEVANT DECISION OF
THIS OOURT.

III.

IS PETITIONER ENTITLED TO RELIEF WHERE ALTHOUGH I HAD AN
OPPORTUNITY TO RAISE MY FOURTH AND FOURTEENTH AMENDMENT CLAIMS
OF THE RIGHT TO BE FREE FROM UNREASONABLE SEIZURE, DUE PROCESS
AND EQUAL PROTECTION UNDER THE LAW, PRESENTATION OF THE CLAIMS
WAS FRUSTRATED BY A FAILURE OF THE STATE OOURTS MECHANISM AND
UNREASONABLE DETERMINATION OF FACTS IN LIGHT OF THE EVIDENCE
PRESENTED THAT I WAS NOT POSITIVELY IDENTIFIED IN A POLICE
LINE-UP DISPLAY NECESSARY TO THE FINDING OF PROBABLE CAUSE FOR
ARREST/SEIZURE.

(a).

IS PETITIONER ENTITLED TO RELIEF WHERE THE PROSECUTION DENIED
HIM DUE PROCESS OF LAW BY NOT PROVIDING HIM A COPY OF
EXCULPATORY VIDEO-RECORDED EVIDENCE AND; UNTIMELY DISCLOSURE;

(b).

BY NOT PROVIDING HIM A COPY DID THAT RENDER TRIAL COUNSEL
INEFFECTIVE TO ADEQUATELY PREPARE AND PRESENT A DEFENCE.

v:.

TABLE OF AUTHORITIES
Cases

PAGE

Beasley v. United States supra, ...... .

21

Brady v. Maryland, 373 U.S. 83 (1963) _____

17, 18

Brewer v. Williams, 430 U.S. 387 (1977) .......

15, 23

Castro v. U.S. 540 U.S. 375 (2003) ...............

26

Celotex Corp. v. Catrett, 477 U.S. 317 (1986)

27, 28

Cf Maosman v. Joseph P, Blitz Inc., 358 F. 2d 686 (2d Cir. 1966) ..29
Clark v. Johnson, 202 F. 3d 760 (5th Cir. 2008)

30

Evitte v. Lucey, 469 U.S. 387 (1985) ................

22

Field v. McKusic,

«*•

29

Frankland v. Anderson, 434 F. 3d 412 (6th Cir. 2006) -------

22

Giordenello v. United States, 375 U.S. 480 (

12

)

Henderson v. United States In-re Guardian Trust Co., 242 B.R. 608 (1992);
and 966 F. 2d 786 (1992) ............................
29
Hinton v. Alabama, 571 U.S. 263 (2014) ....

18, 23

Jaben v. United States, 381 U.S. 214 (1965)

12

Kyles v. Whitely, 514 U.S. 419 (1995) .......

18

Legenoff v. Steckel, 564 F. App’x 136 (6th Cir. 2014) ........ 13, 14
Luick v. Graybar Electric Co. 473 F. 2d 1360 (8th Cir. 1973).. 29
Mapp v. Ohio, 367 U.S. 643 (1961) .........................

12

Martel v. Clair supra, 565 U.S. 648 (2012) .......

21

Matthews v. Abramajtys, 92 F. Supp. 2d 615 (E.D. Mich. 2000) .. 20
McSparran v. Hanigan, 225 F. Supp. 628 (1963) ..........
Michigan v. Jackson, 475 U.S. 387 (1986) ............... .

29
15, 23

Miranda v. Arizona, 384 U.S. 436 (1961) .......... .........

16

Miranda v. Leibach, 394 F. 3d 984 (7th Cir. 2005)

32

Monroe v. Davis, 712 F. 3d 1106 (7th Cir. 2013) .

... 31, 32

vi.

Overton v. Ohio, 534 U.S. 982 (2001) ................. .

11

People v. Ginther, 390 Mich. 436 (1973) .................

22, 24

Pointer v. Texas, 380 U.S. 400 (1965) ...............

. 10, 18

Rothgery v. Gillespie, 544 U.S. 191 (2008) ............

. 15, 23

Ryan v. Dedvukaj, 2009 LEXIS 106077 .......................

24

Smith v. Cain, 565 U.S. 73 (2012) ..........................

16, 17

Stone v. Powell, 428 U.S. 465 (1976) .................. .
Strickland v. Washington, 466 U.S. 668 (1984) .......

32
..... 15, 22

U.S. v. Bagley, 473 U.S. 667 (1985) ....... .

16

U.S. v. Cronic, 466 U.S. 648 (1984) ........

11, 14

Walker v. Johnson, 312 U.S. 275 (1941) .........

29, 30

Wong Sun v. United States, 371 U.S. 471 (1963)

12

U.S.
U.S.
U.S.
U.S.

Constitutional Provisions
Fourth Amend ... 11,24,31,32
Sixth Amend .. .10 ,i4,15,18,23,32,33
Fourteenth Amend . .18,23,31,32,33

Mich. Const.
1963 Art .T." §11, 17, 20 ...

U.S. Supreme Court Rules
R. 10
... 31
U.S. Federal Civ. Rules
.".".""26
RTT5
R. 36
...29
... 27, 28
R. 56
R. 59
...30
U.S. Federal Rules App. Proc
R. 4(a) 4A-iv... 30
... 31
R. 10
U.S. Federal Crim. Rules
... 11
R. 4
Michigan Court Rules
MCR 6.001 ...18
MCR 6.104 ... 23
MCR 6.201 ... 17
MCR 6.433 ...24
MCR 6.502 ...24
MCR 6.508 ... 20, 24
MCR 7.203 ...24
MCR 7.211 ... 22, 24
MCR 7.302 ...24

U.S. Federal Statutes
28 U.S.C. §2254 ... 24, 32
Michigan Statutes
M.C.L. 600.2123 ... 17, 18
M.C.L. 7.66
... 17, 18
M.C.L. 7.664
...11
M.C.L. 750.82
... 1
M.C.L. 750.84
... 1
M.C.L. 750.227 ... 1
M.C.L. 750.349b ... 1
M.C.L. 767.37
... 23
M.C.L. 775.16
...15,23
M.C.L. 780.716 ... 12, 21

vii.

STATEMENT OF JURISDICTION

I Petitioner Green, submits the United States Supreme Court basis for
jurisdiction resides in Title 28 U.S.C. § 2101 and Supreme Gourt Rule 10.,
involving an appeal of a Writ of Habeas Corpus, Motion for Summary Judgment
and Motion To Alter or Amend that judgment because I was convicted in a three
day trial in the Third Judicial Circuit Court for the County of Wayne, in the
State of Michigan on March 21, 2014., in violation of the U.S. Constitution.
The claim of appeal and request for Appellate counsel was filed with the
trial court on April 28, 2014., Wayne County Circuit Court No. 14-470 FH.
The Michigan Court of Appeals affirmed September 10, 2015. Leave To
Appeal to the Michigan Supreme Court was filed November 02, 2015., Court No.
321519., the Supreme Court was not persuaded that the questions presented
should be reviewed by that court and denied leave on May 02, 2016.
On October 24, 2016., a Motion for Relief From Judgment was filed in the
Third Judicial Circuit Court No. 152552, the trial court Summarily Denied
relief November 28, 2016.,without adjudicating all claims or holding an
Evidentiary Hearing. A Motion for Reconsideration was filed on December 15,
2016., it was denied Febuary 1<6, 2017.
On Febuary 02, 2017., the Application for Leave To Appeal in the Michigan
Court of Appeals was filed, Wayne County Circuit Court No. 14-470 FH. The
Court of Appeals delayed its filing until May 10, 2017., and denied leave July
13, 2017.
The Application for Leave to Appeal in the Michigan Supreme Court was
filed on August 31, 2017., Court No. 337063. The court denied Leave on May, 29
2018., the Motion for Reconsideration was filed June 19 2018., Supreme Gourt
No. 156396(27).And was denied on September 12, 2018. The Petition for Writ of

1.

Habeas Corpus was filed in the Federal Eastern District Court of Michigan on
November 02, 2018., Court No. 156396. A Motion for Summary Judgment was filed
July 10, 2019., Federal District Court No. cv-18-13452., and denied July 25,
2019. The Motion To Alter or Amend that judgment and objections was filed on
August 21, 2019. It was denied together with the Writ of Habeas Corpus and
Certificate of Appealability January 31,2020., but granted Leave To Appeal in
Forma Pauperis.
A Notice of Appeal and Certificate of Appealability was filed in the
Eastern District Court of Michigan on February 09, 2020 but entered by the
court February 19, 2020., (and denied June 29, 2020., by the United States
Sixth Circuit Court.) On July 13, 2020., a Petition for Panel Rehearing was
filed. It was denied on October 22, 2020. Court No. 20-1158

2.

STATEMENT OF THE CASE

On March 19, 2014, before Honorable Michael M. Hathaway, Wayne County Circuit
Court Judge, a jury trial was begun in the matter of the People of the State
of Michigan v Jessie Willie Green, Wayne County Circuit Court No. 14-470 FH.
I was charged in the information with Unlawful Imprisonment, MCL 750.349b;
Assault by Strangulation, MCL 750.84(l)(b); Assault with a Dangerous weapon
(Felonious Assault), MCL 750.82; Felony Firearm, MCL 750.227b. It was alleged
that December 19, 2013, at or near 17151 Chandler Park Drive, Detroit,
Michigan, I did assault Symphony Whitney while armed with a weapon.
The

people were represented by Ms.

Danielle Russo,

'

p-66492 assistant

prosecutor; I was represented by retained counsel Mr. Ronald McDuffie, p34858. '
j The following witnesses were called: Symphony Whitney, Albert Whitney, Calvin
Wright, Earl Jackson, Detroit Police Officers Charles Howard, Jeremiah Orvelo,
Sergent Ron Gibson, Sergent Jose Ortiz, and Detroit Police Officer in charge,
Jeffrey Manson.

i

I Prior to trial, after hearing testimony from Sgt. Ortiz"*"(MH, 03/18/2014, 421) and Officer Manson (MH, 03/18/2014, 22-54), the court denied a motion to
suppress a photographic identification.
After a jury was impaneled and preliminary instructed (I, 7-110), and opening
arguments made prosecutor: (I, 114-123; defense: (I, 123-126), the following
testimony was taken: ,
Ms. Symphony Whitney, was walking to school when she recalled walking by a
vacant house and as she approached the house the defendant's green van was
backed into the driveway partially blocking the sidewalk and she had to walk
around the front of the van to get to the other side of the walkway in order
1 Transcript references are as follows: Volume I, 03/19/14; II, 03/20/14; MH,
03/18/14; BM, 03/11/14; ST, 04/04/14; PE, 01/17/14
3.

to continue her path down the street, as she approached the passenger side,
but before completely passing the van, she observed me kneeling down on the
side of the van between the front bumper and front drivers side door,
03/19/2014, (I, 136. 2-25, 137. 1-23, 138. 1-16 and 161. 11-12), that she only
saw my eyes, (I, 164. 4) with a ski-mask partially covering try face, and after
I allowed her to see my face, jumped up ambushing her (I, 127-138). She fell
into the snow and was scared, she was not sure if I had on a coat or not in
the dead of the winter, (I, 146. 17-19), she was not sure if I had a mustache
and beard, (I, 152. 2-18, 164. 14-25). At Preliminary exam 01/17/2014, she
testified, at that time she was in shock, Id. at (41. 18-22), That I did not
pull her towards the van, (I, 140. 15-16), she recall screaming as I tried to
pull her up by her jacket not saying anything, but pulled her up by her neck,
(I, 140. 3-14), then put her in a choke hold with my right arm but not
squeezing so she was still able to scream for help. Then I pulled out an all
black hand gun, pointed it at her head and told her to be quiet but she kept
screaming and struggling to break free, (I, 166. 7-8). On direct exam she
testified she did not know where I pointed the gun at on her, (I, 142. 2324). As she was screaming, a white van was driving down the street, stoped,
and someone got out. She maced me and was able to break free and run towards
the white van for help.
She testified she never saw ire exit or enter the van, (I, 145. 4-5). None of
the witnesses saw anyone exit or enter my green van. She was able to get
inside the white van, called her father, told him what happened and saw me go
down the street wearing all black. She saw neighbors come out of their homes
and was present when one of them called 911. She also was handed the phone so
she could talk to the operator. She talked to the police and her father when
they arrived at the scene. A sketch was prepared from the information she gave

4.

to the police. She indicated the person was approximately 6 feet tall and
skinny, around 30 years old. (I, 515). The same day, she was shown a
photographic line-up at the station (I was # 6). She did not identify me, but
tentatively picked out someone in the # 4 position. (I, 155).
The next day a Sergeant Ortiz visited her at home with a different set of
photographs where I was then placed in the # 4 position where she tentatively
identified me. (I, 157). She identified photographs of the van. (I, 145-163).
Mr. Calvin Wright was the first to witness the incident as he was driving to
work in his white van, and testified he saw a young lady struggling with a
man, 'like fighting', the man was tall and skinny, wearing all black including
a mask. They were fighting between a gate and the green van, she was on the
ground and the person was trying to pull her up, he thought the person had his
arm around her neck or 'something'. She did get up and he pulled her away from
the green van, (I, 203. 6-8; 204. 10-14; 205. 12-14). As he was backing up, he
got stuck in the snow. It appeared the man was pulling the girl up off the
ground by her neck. He got out of his van, heard the young lady say 'Help,
help,. The man let her go and she ran towards him, grabbed him, and when
asked, said she did not know the person and he was trying to kidnap her. He
told her to sit in his van and he went to the comer to see which way this
person was going. The girls face was red and she was crying. He stayed with
her until the police arrived. Someone else called the police. He gave a
statement to Police. (I, 204-208). He told the police the person was 20-30
years old, between 5' 9" -6 .He never saw a weapon. As the man was leaving,
he did not see his face or take his pants off. (I, 208-216).
Mr. Earl Jackson, was at his children's mother's house which was across the
street from the vacant house, heard the screams but paid no attention because
children would play and scream alot on the way to school. It continued so he

5.

looked out a second floor window and saw a young lady being grabbed by a man
and she was trying to get away. The man wore all black, the two people were
struggling against the gate of the vacant house near the van, he did not see
the person pull her towards the van, (I, 222. 17-25; 223. 4). None of the
witnesses saw the person with a gun. Mr. Jackson ran downstairs, went outside
the front door with his weapon drawn and observed the white van and a man
running away. About three houses down he saw the man take off his pants as he
was running away. He identified photographs of the interior of the van. He
also gave statements to the police. He did not see a weapon. (I, 217-232). He
saw a green van backed into the driveway of the vacant house. By the time he
got outside, the young lady had gone to the white van and the person in it was
helping her. He checked out the green van in the driveway: it was not running,
a door was unlocked, and the keys in the ignition. He took the keys out and
gave them to the police. He saw the person running around the corner going
down Chandler Park Dr., and crossed the street (south bound) towards the East
English High School, (I, 210. 16).
Officer Howard was working undercover on the day in question, responded to the
location between 9:00-10:00am, after receiving information about a vehicle
that was left behind by a possible suspect. It was my green van; the license
plate was recorded. He received information it was registered to me in Harper
Woods, Michigan. He and his partner made that location, in different vehicles.
He noticed a black ford and a blue Buick in the driveway. He kept the house
under survellance. The Ford was registered to a Henritta Barber with an adress
of 6007 Farmbrook; the Buick was registered to a velvetann Jones and myself at
4111 Nottingham Rd. in Detroit. (II, 6-16).
At approximately 9:30am, he saw the Ford, driven by a female, go around the
block a couple of times, about ten minutes later, he saw the Buick leave,

6.

occupied by a male, they could not identify who was driving either vehicle.
(II, 17-18; and was really not sure on the times. (II, 15-20. 1-9); 32-33. 111). He relayed the information to his superiors, later learned from his
partner that both vehicles had made the address on Farmbrook. He responded to
that location and saw both vehicles, unoccupied. Ihe Farmbrook address was
approximately eight blocks east and five blocks north from the incident. He
stayed at that location for approximately half an hour, saw a male and a
female leaving in the Buick around noon. A marked police vehicle was advised
of the direction it went and he learned it was subsequently stopped. (II, 3839). He arrived at the incident location at 8:20am. Other officers were
present as were neighbors. (II, 26-33).
Officer Orvelo along with his partner made the traffic stop of tine Buick at
noon, driven by me; ay passenger was my girlfriend, Vemell Fleming. My hand
gun was recovered from my person. Officer Phillip Descamps was the contact
officer. I was handcuffed and transported to their station at the order of
Sergeant Ortiz. (II, 39-42).
Outside the presence of the jury, discussion was had regarding specific times.
(II, 44-50).
Sergeant Ron Gibson, was assigned to the forensics team. On December 20, 2013,
he responded to an address on Oldtown St. in Detroit, and was able to extract
videos from two security cameras, which were played for the jury, after noting
the time differential, because he enhanced the videos, which showed a green
van pulling up and parking, showed a person in white walking, a person in
black coming from the direction of the green van, and showed a white van
arriving and someone getting out. (II, 52-69), juror #2, 3 and 4 wanted to see
the video again but in real time for clarity, but was denied. (II, 67-68), the
video showed the person in black with a ski-mask on from start to ending.

7.

Sergeant Ortiz testified interview me on 12/19/2013, and noticed I looked
younger than my three year old drivers license photograph, so he took a
photograph which was sent to Officer Manson. During the interview I was in
custody at that time. I was interviewed at 1:40pm for approximately 45
minutes, I refused to sign the statement nor did I write it, which was read
into the record. (II, 69-87).
Officer Manson compiled the second photographic line-up and showed it to Ms
Whitney on December 20, 2013, he was not aware that she had picked someone in
the first line-up, because he never saw that line-up. He did not tell Ms.
Whitney who to pic or give any hints. (II, 69-99).
Officer Manson was

the Of ficer-in-charge. He obtained

the information

regarding the van, indicated the time the 911 call was made and officers made
the scene. The green van had not been reported stolen. (II, 99-105).
He was involved in arranging the line-ups and randomly placed my photograph in
the # 4 position. (II, 122-151). Ms. Whitney was showen the line-up at her
home where she stated on the line-up document, " I Think he is the one who
Attacked me ". It was signed by both her and her father.
The police called me to tell me I could come and pic up my green van, when I
arrived, I was advised of my rights and another statement was taken. The
statement was read to the jury with the exception of the last question and
answer. (II, 112-122).
Prosecution rested as did defense. (II, 151).
Jury instructions were reviewed. On its own, the court reduced the second
count to Attempt Strangulation. (II, 153-170). A motion for directed verdict
was denied. (II, 170-172).
Closing arguments were made(prosecutor, II, 176-192,210-219; defense, II, 192209).

8.

The jury was instructed. (II, 219-238).
I was found guilty as amended. (Ill, 4).
On April 4, 2014, before Judge Michael M. Hathaway, the pre-sentence report
and sentence guidelines were reviewed and corrected. ( ST, 3-24).

9.

ARGUMENT
CONFRONTATION
I.

A defendant in a state criminal criminal prosecution is entitled to

confront and cross-examine witnesses

in his

trial,

U.S. Constitutional

amendment Six. This fundamental right is made obligatory on the states
guaranteed through the U.S. Constitutional amendment Fourteen.

I was denied the right to confrontation by a Michigan state court in
trial 03/20/2014, that had cumulative effects when the judge deliberately
confused the facts and precluded confrontation when defense counsel moved to
call the governments endorsed police witness officer Phillip Descamps, #4474
to testify, see Appendix (46)a,iwho was the contact/arresting officer, by
unreasonably determining that officer Descamps had previously testified when
in fact he had not! Ihe judge knew this or should have known because he had
informed defense counsel that the officer on the stand Jerimah Orvelo, #3536
could not answer certain questions, that must be answered by his partner who
was the contact/arresting officer, Phillip Descamps. See trial transcripts,
03/20/2014, Vol. II, [ 122-141]. Id. at [ 126-129 ]. also see [ 33-42 ].
I was arbitrarily deprived of testimony that would have been relevant,
material and vital to my defense that could have established constitutional
violations, by the court interfering with counsel's representation to make
independent decisions

about how to conduct

the defense

to develop a

testimonial record. His absence was not harmless to the confrontation clause
specifically, a denial of substantive due process of law. See Pointer v.
Texas, 380 U.S. 400 (1965). Under these circumstances where the trial court
abused it's discretion, I was not afforded a fair and impartial trial worthy
of confidence and the conviction must be set aside. See Appendix (R8),,
Admissions I

secured Id.

[ 1. 1-2 ],[ 2. 3 ]. See Judicial Notice ECF # 22.

10.

INEFFECTIVE ASSISTANCE OF COUNSEL

(a). A eoi|>ietfU: denial of counsel exists when the government actions deny
a defendant the presence of counsel at a critical stage in the proceedings or
where counsel entirely fails to subject the prosecutions case to meaningful
adversarial testing, prejudice to the accused is presumed. U.S. v Cronic, 466
U.S. 648 (1984). id. [ 659 ]. See Affidavit (1). Appendix (19)a.
Although counsel moved to call the above police witness and was denied
arbitrarily, counsel's deficient performance in trial failing to object to the
courts intrusion on his representation and abandoning the fourth amendment
claim he raised in preliminary hearing, of the right to be free from
unreasonable seizure was unreasonable representation constitutionally. He
properly raised the argument that the state had not met its minimum burden to
charge. See Vol. PE, 01/17/2014 Id. at [ 48-49 ]., because the identification
of me was " SPECULATIVE. " The complainant stated on the line-up document,
Quote, " I Think he is the one who attacked me." See Appendix(9)a(l.Peoples
Exhibit (2)., signed and dated by complainant. The police provided in their
complaint and affidavit/recommendation for warrant, that I was positively
identified

in

their

photographic

line-up,.

this

was

a

flagrant

misrepresentation of the facts and neglected to " set forth sufficient basis
upon which a finding of probable cause could be made." For these reasons, the
warrant issued here could not support a finding of probable cause by the
issuing magistrate. See Overton v. Ohio, 534 U.S. 982(2001). Id. at [985986]. See M.C.L. 766.13; Fed. Crim. R. 4; M.C.L. 766.4 See Appendix (30)a.
The doctrine of the U.S. IV. amendment apply to all invasions on the part
of the government and its employees as a whole, of the sanctity of a man's
hone and privacies of life. It is the invasion of his indefeasible right of

XU

personal security, personal liberty, and private property, and any intrusion
is within the condemnation of the amendment, this extended to the states
through the due process clause the right to be free against unreasonable
seizures. See Mapp v. Ohio, 367 U.S. 643 (1961). Id. at [ 647 ]. Under these
circumstances

a

competent

attorney

would

conduct

basic

pretrial

investigations to advocate for his client as in Wong Sun v. United States, 371
U.S. 471 (1963)., Citing Giordenello v. United States, 357 U.S. 480,486;
To challenge the arrset warrant procedure serves to insure
that the deliberate, impartial judgment of a judicial
officer will be interposed [482] between the citizen and
the police, to assess [19] the weight and credibility of
the information which the complaining officer adduces as
as probable cause. To hold that an officer may act on his
own, unchecked discretion upon information to vage and
from too untested a source to permit a judicial officer
to accept it as probable cause for an arrest warrant would
, subvert this fundamental policy. See M.C.L. 780.716(b) (e)
In Jaben v. United States, 381 U.S. 214 (1965) The complaint must provide
the answer: " What makes you think that the defendant committed the offense
charged? " Id. at [ 224-225]., and so should be the case in a police conducted
photographic line-up display procedure.
The complainant's statement on the photographic line-up document does not
provide the police probable cause because it is not sufficient for the stricti
juris of the amendment that the right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no warrants shall issue, but upon
probable cause, supported by oath and affirmation, and particularly describing
the place to be searched, and the persons to be seized. As defined in (
MERRIAM WEBSTERS DICTIONARY 11th ED.;) and is common knowledge; that the use
of the word 'Think" in the context as£ a directive for an identification in a
photographic line-up conducted by Detroit Police Department on 12/20/2013, .
Appendix (9)a(l) peoples Exhibit (2). Articulated in a criminal accusation, as

12.

applied ordinarily means uncertainty characterized by a lack of reaching a
definite conclusion, with wavering and hesitation creating

reasonable doubt,

often suggest attainment of ideas-SPECULATIVE. Ihe statement of the meaning of
the word used in a word group or sign or symbol, is the action or power
describing, explaining, or making definite and clear implies:
An entrance of an idea into ones mind with or without
deliberate consideration or reflection to conceive and
suggest the forming and bringing forth and developing
of an idea, plan or desire to IMAGINE: and FANCY that
suggest an imagining often unrestrained by reality but
spurred by DESIRES.
1.
!_

To consider something likely: SUSPECT imagine envision mean to form an
idea.

2.

To regard as CONSIDER: PONDER.

3.

Not fully worked out or developed, hesitant, uncertain.

4.
lacking in passion, force, or zest marked by an absence of enthusiam
L
jorhcdfiviction
5.

To consider the suitability.

6.

To have concern.

7.

To form or have in the mind, SPECULATION.

none of the above definitions describes, SURE, CERTAIN or POSITIVE. It must be
underscored, that even the trial judge concurred with his questioning of the
methodology used by the police to distinguish the statement from the first
photographic line-up display conducted 12/19/2013, where the complainant
selected someone else and stated on the line-up document, Quote, " It looks
like #(4)i'm not sure. " see Appendix (v$ )a. peoples Exhibit (1). and motion
transcripts 03/18/2014, Vol. MH, Id. at [ 45. 25],[ 46. 3-25 ]. Also see trial
transcripts 03/20/2014, Vol. II, Id. at [ 111. 20-25 ]. See U.S. v. Carter,
236 F. 3d 777,783 ( 6th Cir. 2001.) See Judicial Notice, 11/01/2019; ECF # 25
In Legenoff v. Steckel, 564 F. App'x 136,143 (6th Cir. 2014); The court
holds:

13.

Where the witnesses Lyle Wipple and his wife, in that case was
80% positive that Legenoff was the person who robbed them was not
used Id. at [143] because as the court directs, were not ideal, the
court used Mr. Robert Temple and his wife’s identifications because
they were 100% SURE. Id. at [138],[5]. The Wipples warrant was
denied for the larcenies, Wayne County Pros. Reconmendation at pg.
3 Id. 1842., ultimately all charges were dismissed regarding the
Wipples. (Citing Malley, 475 U.S. at [345].
Such should be the same in my case, because the sixth amendment
recognizes the right to the assistance of counsel, it envisions counsel
playing a role that is critical to the ability of the adversarial system
to produce just results, and plays the role necessary to ensure that the
trial is fair. For that reason, this court has recognized that " the
right to counsel is the right to effective assistance of counsel." It
must be underscored, that the trial judge held that my case would rest
entirely on the credibility of the complainant's identification. See
Vol. BM, 03/11/2014., Id. at [7. 24-25],[8. 1]. Under Cronic, this court
holds:
The presumption that counsel's assistance is essential
requires this court to conclude that a trial is unfair if the
accused is denied counsel at a critical stage of his trial.
Similarly, if counsel fails to subject the prosecutions case
to meaningful adversarial testing, then there has been a
denial of rights under the U.S. Const. Amend. VI., that make
the adversary process itself presumtively unreliable, No
specific showing of prejudice is required because the
petitioner has been denied the right of effective crossexamination which would be constitutional error of the first
magnitude and no amount of showing of want of prejudice .
wouldicure it. [659].
Under the circunstances in my case, likely prejudiced me so that
the cost of litigating their effect is unjustified because " I was
denied the right effective cross-examination " which is constitutional
error of the first magnitude and no amount of showing of want of prejrudice will cure it. Also by counsel not conducting basic pretrial

14.

investigations, it was not established and preserved for appellate
review, that I was arbitrarily denied by the state District Court of
first instance,

the U.S. Sixth Amendment right to counsel at my

arraignment on the Complaint and Warrant on 12/23/2013., This honorable
court holds in Rothgery v. Gillespie County, 544 U.S. 191; see M.C.L.
775.16 ,' See State District Court's Register of Actions Appendix (7)a 6.
We have twice held that the right to counsel attaches at the
initial appearance before a judicial officer, (Citing Jackson,
475 U.S. 625 at 629; Brewer, 430 U.S. 387 at 399., the first
time^ before a court, also known as the " preliminary
arraignment " or " arraignment on the Complaint," is generally
the [375] hearing at which " the Magistrate informs the
defendant of the charge in the complaint, and of the various
rights in further proceedings," and determines the conditions
for pretrial release." (Noting Brewer and Jackson controls.)
See M.C.L. 775.16; M.C.L. 764.26 and MCR 6.104 (E).
Therefore,

counsel's

ignorance

of

a point

of

law

that

is

fundamental to his clients case combined with his failure to coduct
basic research on that point is a quintessential example of Strickland
v. Washington, 466 U.S. 668 (1984); Id at [689-690]. Because counsel
failed to properly investigate and challenge my unlawful arrset/seizure
and or elicitation of photographic ID. evidence

where I was under the

assertion of police authority in violation of the constitution, it was
not established and preserved for review, if he had, he would or should
have discovered the court documents submitted here showing prima facie
evidence of the unlawful arrest/seizure on 12/19/2013; see Appendixes;
( 11 )a.

Wayne County Circuit Court Conviction and Referral Slip,

CTN/PR0S. # 13725666-01. dated 01/24/14; (l0)a.

36th Judicial District

Court Pretrial and Release Form, dated 12/23/2013; ( 7Oh. Wayne County
Circuit Court Register of Actions and (12 )a.

Detroit Police witness

statement 12/19/2013. I don't know if this court would deem it a

15.

seizure, but as raised throughout my appeals where the police upon my
arrest/seizure gave my passenger my vehicle keys (without consent) to
her and instructed her to follow them to their station if she would make
any statements. See MH, 03/18/2014; Id. at [12. 13-25],[14. 9-17]; and
Appendix (31^. my Affidavit of Arrest. In Miranda, this court holds:
An interrogation is " custodial " when a person has been taken
into custody or has been deprived of his or her freedom in any
significant way, 384 U.S. at 436.
Next, trial counsel failed to object to the prosecutors withholding
and untimely disclosure of exculpatory video-recorded evidence, Peoples
exhibit

(16),

for its effective use in ray evidentiary hearing on

03/18/2014; and for trial the next day for rebuttal or impeachment
purposes. Any competent counsel would have moved for a continuance for
adequate time to... if nothing else, " review and study " it, especially
where the police Forensics team Sergeant Ron Gibson had extracted the
video on 12/20/2013; see Vol. II, 03/20/2014; 51-69 Id. at [53. 19-25],
and edited its contents. It must be underscored, that counsel did not
even cross-examine! Gibson on his analysis of the video or procedures
used to extract and edit it, see Vol. II, Id. at [69. 2-11]., especially
when jurors # 2, 3 and 4 expressed concern about the videos visual
quality and it not being in real time. But when the jurors asked to view
it again in real-time, the request was not honored. Id. at Vol. II, [67.
6-25],[68. 1-25]. The defence was entitled to its own copy of the video
timely before my pretrial hearing and trial to adequately prepare a
defense because, (1). It requires not simply a cursory review of the
recording, but to give it at lease a " real-study ” of a kind that
involves repeated viewing's, see U.S. v. Bagley, 473 U.S. 667 (1985)..,
of the incident similar to what one would expect in the course of

16.

evaluating a lengthy written witness statement or interview transcript
in the pursuit of truth and justice regarding the reliability of the
allegations, as it is the best substance of those allegations to
determine the credibility of the parties. Discovery in a Criminal case
in Michigan is governed by Mich. Ct. R. 6.201. No statute including
M.C.L. 600.2163a has any force or effect to the extent that it attempts
to limit or contravene the court rule requiring mandatory discovery. The
recorded video evidence used to corroborate the witness testimony and
convict me should have been provided to the defense. By not providing
the defence its own copy of exculpatory evidence that would have
significantly undermined the testimony of an important prosecution
witness is often found to be material, such suppression is frequently
encountered

in

prosecutions

involving

eyewitness

identification

testimony. Here evidence demonstrating weakness or inconsistencies in
the pre-trial identification process often figures prominently in the
court's finding of materiality, see Smith v. Cain, 132 S. Ct. 627 (2012)t
and violates due process of law and renders trial counsel ineffective to
adequately prepare a defense. There will be occasions such as mine where
the prosecutor learns or should have known about the information
contained in the video that omits any weapon, and shows it was not
possible for the complainant to see her attackers face because the
person was wearing a mask fully covering their face the entire time,
that is potentially and materially exculpatory after conviction, and a
prosecutors duty under Brady to disclose exculpatory information is "
ongoing. " The rule protects a criminal defendant's right to a fair
trial, and extends to all stages of the judicial process. See Michigan
Rules of Professional Conduct 3.8 (d). But the prosecutor and court

17.

continually denied my due process rights requests for the recording, see
requests in Appendixes, (27)a-a(4); (36)a.; (37)a. See denials in Appendixes,
(34)a,; (35)a. This is inconsistent with the statute and court rule plus,
fundamentally unfair. See Appendix (R8)L. Admissions; Id. [4. 5] and M.C.L.
600.2163a; MGR 6.001(E). Also see Hinton v. Alabama, 571 U.S. 263 (2014); Id.
at [274]. Kyles v. Whitely, 514 U.S. 419(1995).
As stated in the beginning of this argument I was arbitrarily denied the
right to confront the government police witness officer Phillip Descamps, #
4474., in trial 03/20/2014, his absence was not harmless to the confrontation
clause, specifically under substantive due process, this fundamental right is
made obligatory on the states by the U.S. Const. Amend. VI, XIV. in a state
criminal conviction. The judge deliberately confused the facts when defense
counsel moved to call the governments endorsed witness to testify, see
Appendix (46)a. and precluded confrontation by unreasonably determining that
officer Descamps, had previously testified (and was allowed to 'leave the
building,) when in fact he had not! And the judge knew or should have known
better because he had continually informed defense counsel that the officer on
the stand, Jerimah Orvelo, #3536 could not answer certain questions, that only
his partner must answer who was the contact/arresting officer,(Descamps.) See
trial,

03/20/2014; Vol. II, Id. at [33-42],[122-141]; Id. at [126-129].

I was arbitrarily deprived of testimony that would have been relevant,
material and vital to my defense which could have establish constitutional
violations and my innocence. The trial court abused its discretion to not
afford me a fair and impartial trial worthy of confidence by interfering with
counsel's ability to make independent decisions about how to conduct the
defense and develop a testimonial record. See Pointer v. Texas, 380 U.S. 400
(1965). Under the circumstance in my case, the likely-hood that any defense

18.

counsel could have performed as an effective adversary was so remote as to
make my trial inherently unfair and likely prejudiced me so that the cost of
litigating the effect is unjustified because " I was denied the right of
effective cross-examination " which is constitutional error of the first
magnitude and no amount of showing of want of prejudice will cure it.
By this honorable courts long standing precedent on this issue, I am
entitled to have my conviction set aside. See Appendix (R8)y. Admissions; Id.
at [2. 5-6],[3. 8],[4j5, 15]. See Judicial Notice ECF # 22. Also see
Admissions in Appendixes (6l)a; (62)a; (63). Dated: November 03, 2020.

19.

INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL
(b).

It is an unreasonable determination of the facts for the state and

subsequent courts to not find Appellate counsel ineffective where he failed to
raise the issues herein. Attorney Daniel J. Rust, p32856, was assigned to
represent me in my appeal by the 3rd Judicial Circuit Gourt, Wayne Gounty
Michigan on 04/24/2014. see Appendix (39)a. These issues could have been raised
on Appeal, Mich. Ct. R. 6.508 (D)(3), but I submit I am entitled to relief
because I had " good cause " for failure to " properly " raise them on appeal,
namely ineffective assistance of appellate counsel. To evaluate a claim of
ineffective assistance of appellate counsel, the court must assess the strength
of the claims counsel failed to raise. See Matthews v. Abramajtys, 92 F. Supp.
2d 615 (E.D. Mich. 2000). Counsel's failure to raise an issue on appeal amounts
to ineffective assistance only if a reasonable probability exists that
inclusion of the issue would have changed the result of the appeal. The herein
claims that appellate counsel failed to raise, deserved encouragement to
proceed further because I have demonstrated a denial of constitutional rights.
First, Appellate counsel's deficient performance fell below the objective
standards of reasonableness. On my direct appeal, there was a substantial
breakdown in communication between assigned appellate counsel and myself
concerning the direction in which my appeal would go, where counsel refused to
raise what I consider are meritorious issues of constitutional violations,
namely ineffective assistance of trial counsel, the trial courts arbitrary
denial of confrontation, Prosecutors withholding and untimely disclosure of
exculpatory video-recorded evidence and Unlawful arrest/seizure perpetrated by
" Extrinsic Fraud on the Court;" voiding procedural or in-personam jurisdiction
where not conferred by legal process. Appellate counsel should investigate
potentially meritorious issues when informed or have reason to believe that
facts in support of such claims exist. When informed of these issues, counsel

20.

dismissed them without investigation and immediately said, trial counsel was
not ineffective. See letters to appellate counsel, Appendixes (40)a; (43a-afl.
and counsel's response, Appendix (6)a-a(7). See M.C.L. 780.716 (b),(e). At that
time and before counsel could file the brief on appeal,

I sought his

replacement if he would not raise the issues or withdraw, so, I filed a motion
for substitute appellate counsel because of the conflict on 09/05/2014, see
Appendix (3)a., the court did not respond. Then I resubmitted it 10/20/2014,
see Appendix (5)a. still no response. I then submitted a copy of the motion to
the Michigan Court of Appeals requesting them to compel the lower court to
respond. See Appendix (5)a(l). Neither court responded. See Appendix (42)a.
Michigan Court of Appeals Docket Ehtry Record reflecting the filing. But the
trial court however corresponded with assigned appellate counsel and a brief
was filed on 11/11/2014., see Appendix (4)a. I was not comprised by counsel or
the court and I was forced to proceed on appeal where the relationship was
seriously

irreparable,

prejudicing

my

chances

to

present

and preserve

meritorious issues that has the likelyhood of success for acquittal. See Martel
v. Clair supra, holds:
Where there is a substantial conflict in the Attorney client relationship
that actually affect counsel's representation, successor should be granted.
An indigent defendant, entitled to the appointment of counsel at public
expense, is not entitled to choose his counsel. However, he may become entitled
to have his assigned counsel replaced upon a showing of adequate cause for
change in counsel. The court has a duty upon adequate cause such as this to
inquire with both parties into the veracity of the allegations of the conflict
because ignoring claims on appeal when a procedure exist for asserting then is
the equivalent of failing to " investigate " all apparently substantial
defenses at trial. See Beasley v. United States supra. This court has said that
indigent defendant's must be afforded counsel to argue on appeal any of the

21.

legal points arguable on their merits. Strickland, appellate counsel should
have moved for an evidentiary hearing to develop a factual record required for
appellate review. See MCR 7.211 (c)(l)(a)(ii). See People v. Ginther, 390 Mich.
436 (1973). I however, did move for numerous evidentiary hearings and was
ignored in some and denied in others see request in my motion for Relief From
Judgment 10/24/2016 Id. [5. 8]; Appendix (5l)a#
(15)a-a(8); Appendix (64)a.

. i 12/20/2016; Appendix

>08/26/2017. Appellate counsel was ineffective for

not adequately communicating with his client. On 08/21/2014,
, I mailed Rust a letter with questions concerning his level of qualifications
and experience, counsel did not respond.

See Appendix (5$) a. By not advocating

his client's cause or withdrawing from the case, or comprising his client of
important developments in his case, counsel was not competent to represent me
and the breakdown in the relationship actually affected the adequacy of his
representation and the presumption of prejudice applies.
Appellate counsel raised frivolous issues of sufficiency, these issues
clearly were not stronger than the issues I alleged that are supported by the
record. Considering all circumstances and prevailing norms of practice as
reflected in the American Bar Association standards and the like, as to the
constitutionally protected independence of his wide latitude in making tactical
decisions, his were fundamentally ineffective, and the dereliction of knowledge
to bring to bear such skill and performance that will provide reasonable
representation by ABA Standards 4-8.4 (a)., creates an unreliable testing
process that cannot be relied upon to produce just results. See Frankland v.
Anderson, 434 F. 3d 412 (6th Cir. 2006). Due process entitled me to effective
assistance of counsel in my first appeal of right. See Evitte v. Lucey, 469
U.S. 387 (1985). See Appendix (R8)2. Admissions. See Judicial Notice ECF # 26.
And Affidavit (2) asserting ineffectiveness of appellate counsel Appendix (20)a.

22.

U.S COURT OF APPEALS SANCTIONS > DEPARTURE > CONFLICT
II, The U.S. Sixth Circuit Court of Appeals has sanction the lower courts
departure from the usual course of judicial proceedings that denied me due
process and equal protection under both state and federal constitutions. And,
has entered decisions in conflict with another U.S. Court of Appeals decision
on the same important matter, and decided an important question in a way that
conflicts with relevant decisions of this court.
The first departure was by the 36th Judicial District Court, Wayne
County, Michigan on 12/23/2013., I was arraigned on the complaint and warrant
for the above mentioned charges in violation of the U.S. Sixth Amendment right
to counsel, substantive due process and equal protection under the law
arbitrarily!
In Michigan, there are procedural rule-base and statutory provisions
provided to guide the judicial process designed to protect the " concept of
ordered liberty,'* but the state court judge failed to follow them and protect
me as required by M.C.L. 775.16 (E). See MCR 6.104; M.C.L. 767.37a (4), where
the state had not met its minimum burden to charge for lack of probable cause
because I was not positively identified in any police line-ups, voiding
procedural and in-personam jurisdiction where not conferred by legal process
of law. By not providing me with counsel in the arraignment, this issue was
not challenged leaving me to face the procedural forces of organized society
alone immersed in the intricacies of substantive and procedural law. The Sixth
Amendment attaches at the first appearance before a judicial officer at which
the magistrate informs the defendant of the charges in the complaint, and of
various rights in further proceedings, and determines the conditions for
pretrial release. See Rothgery v. Gillespie County, 544 U.S. 191; Id. at
[375]. (Noting Brewer and Jackson controls.) Next, to establish my fourth,

23.

sixth and fourteenth amendment claims, I sought numerous times from the state,
my case files and materials but was for the most part denied, then rule
against throughout various proceedings where the state held that I had not
established my claims and entitlement to relief. Ihe state courts conduct
constitutes a deprivation of a constitutionally protected liberty interest in
my case files and materials, to which, the right to appellate review is a
legitimate claim of entitlement. See Ryan v. Dedvukaj, 2009 U.S. DIST. LEXIS
106077. Ihe right to the documents and materials for review of claims of error
asserted, are of a ministerial nature that is prescribed by law where the
state court has a clear legal duty incumbent on the state, and a clear legal
right for me to the discharge of such duty, and the specific act sought to be
compelled that is defined by law with such precision and certainty as to leave
nothing to the exercise of discretion or judgment although, its execution may
require some discretion to carry out the rule-based, statutory provisions of
MCR 6.433. An indigent defendant is entitled not only to a transcript of trial
court proceedings which led to his conviction, but also to case files of post­
conviction proceedings, both direct and collateral, when he appealed from
denials of his petitions in such post-conviction proceedings,

I was denied

numerous evidentiary hearings to develop a factual testimonial record for
appellate review. See MCR 6.508; MCR 7.211. People v. Ginther, 390 Mich. 436
(1973).
Where there exist procedures to assert a right, due process provides
equal protection of that right under both state and federal constitutions. On
the following occasions, I sought my case files and materials to pursue my
post-conviction remedies before both state and federal courts. See MCR 6.502;
MCR 7.203; MCR 7.302; 28 U.S.C. § 2254 and was denied or not sent what was
sought. See requests 09/29/2015; 08/24/2016; 08/29/2016; 09/22/2016, Appendix

24.

(17)3

; 1 1 /1 0/2 015,

®

(27)g-g(4)

12/22/2017,

Apendix

06/1 0/201 9,

Appendix

(5B)a.

08/09/201 9,

Appendix

(.BCE# .'20)

1 0/01 /2020,

Appendix (69 )a.

Pursuant
2004-6;

to

;01/27/201 6,

Appendix
Appendix

(17 )a L ; 0 2/01 /2 01 7,

Appendix

12/20/2016,

C. 3

Apendix

Michigan

(35)3
(57)e

; 0 6/2 0/2 01 8 ,

Appendix

( 65

)a.

0 6/12-/2018',

Appendix

( 66

)a.

( 68

)a.

;

;03/1 7/2020 ,

Appendix

;09/29/2017, Appendix (37 )g#
Supreme

Court

Administrative

Order

Guides for assigned appellate counsels:

Standard 3.
Counsel should raise those issues, recognized by a
practitioner
familiar
with
criminal
law
and
procedures on current basis and who engages in
diligent legal research, which offer reasonable
or
prospects
of
meaningful
post-conviction
appellate relief, in a form that protects where
possible
the
defendant's
option
to
pursue
collateral attacks in state and federal courts. If
a potentially meritorious issue involves a matter
not reflected in the trial record, counsel should
move for and conduct such evidentiary hearing as
may be required.
Standard 4.
Defendant's right to file supplemental pleadings in
propria persona where counsel's duty to provide his
clerical
with
advise
and
client
procedural
assistance.
Standard 7.
Counsel must keep defendant apprised of the status
of the appeal and promptly forward copies of
pleadings filed and Opinions or Orders issued by a
court

Mext ,
not

in

answered,

Record,
See

the

state
and

court
when

some
T

submitted pleadings

requested

courts

for the second quarter forward in 2017,

requests

04/21 /2017,

Appendix

25.
2

the

(70 )e.

So,

were
Docket

simply
Entry

T was ignored.
T

filed

in

the

trial court 0 motion for statement by trial judge as to matters
04/26/201 7,

undecided,
They

were

Appendixes

(1 8)a,;05/09/201 7 ,

denied,

See

0 5/02/201 7 , ; (2)a(2) ,05/03/201 7,
witb

Michigan

the

state

court

(1B)a(1).

Appendixes

T

even

filed

administrator

a

on

complaint
04/28/2017,

Appendix (6 7) e . See Administrator's response 05/11/2017, Appendix
T

( 60 )9•

mas

handicapped

as

it

relates

to

obtaining

files to pursue my state court remedies. Submitted
evidentiary bearings

my

case

requests for

were simply ignored and not afforded to me

for post-conviction proceedings in order to establish my claims.
Motions

for

in-camera-inspections of exculpatory video-recorded

evidence were
departures

also

were

ignored

raised

Corpus proceedings,
usual

course

05/31/2019,
pursuant

to

There

are

a

a

Civ.

federal

The state court

district

proceedings

motion
R.

granted

required

characterizes
and

filed

and

the

judicial

Fed.

characterized

in

answered.

court

Hgbeas

there that court departed from accepted and

of
T

and never

to

as

in part as

petitioner's

a

that

when

a

on

record

court

qdd a

Federal

it must

Amend it.

the

the

motion to

pleadings,

OPPORTUNITY to withdraw or

First,

correct/Amend

15(a)(1)(b).,

admonitions

well.

claim.

court

provide

re­

re­

N0TTCF

See Castro v U.S,

540

U.S. 375,383 (2003).
The above rule authorizes a party to amend its pleadings as
a matter

of course within 21

days after a responsive pleading.

After the Respondent's response to the petition, see FCF # 9., X
timely filed the motion but the court re-characterized it so the
right

and

purpose

was

defeated.

26.

See

FCF

#

11.

"It

must

be

underscored,

that

prior

to

tbst,

T

1

was

transferred

from

one

fecility to another where some of my legal paperwork was lost by
the department
And

when

T

documents

T

filed

could not reproduce the entire petition."
a

motion

for

production

from the court on 06/10/2019,

06/13/2019,
therefore,
enclosed

so,

EOF
some

and

Appendixes

T

It was

denied

of

listed

Appendixes

respectfully

listed

court will have

refer

in the habeas

on

this

07/25/2019,

missing

ECF # 19.,

to this court are not
honorable

Petition EOF # 1

properly before

the

entered by the court on

# 14.
my

of

court

* 9

to

the

so that the

it an adequate complete record

for review.
Next, on 06/26/2019, I filed a motion for summary judgment,
entered

by

the
see

cou r;T: on
Appendix

07/02/201 9,
( R7 ) .

EOF # 17,

Summary

Judgment

with
was

Admissions
denied

on

07/25/201 9, ECF # 19. Tn the Order, the judge held:
Respondent filed a response to petition for writ of
Habeas

Corpus,

in

which

denied.

Upon

review

of

he
the

urges

that

briefs,

a

Petitioner's
genuine

claims

issue

of

be

fact

exists as to whether or petitioner is entitled to relief.Td.at
1723-1724 ].
this holding is inconsistent with this courts holding in Celotex
Cor p.

v.

Catrett,

477 U.S. 317

(1986).

Quoting Fed.

Civ.

R.

56.

and holding:
(a ) .

Motion

for

Summary

Judgment

or

Partial

Summary

Judgment.

A party may move for summary judgment, identifying
each claim or defense--or the part of each claim
or defense--on which summary judgment is sought.
The court shall grant summary judgment if the
1 During transfer from one facility. ,Tiivcase files were lost- please refer to
Habeas Petition for missing appendixes;

27.

movant shows thst there is no genuine disputes ss
to any material fact and the movant is entitled to
judgment as a matter of law. The court should
state on the record the reason for granting or
denying the motion.
Tn our view, the plain language of Rule 56 (c)
mandatesthe
entry
of
summary
judgment,
after
adequate time for discovery and upon motion,
against a party who fails to make a showing
sufficient
to
establish
the
existence
of
an
element essential to that party's case, and on
which that party will bear the burden of proof at
trial, Tn such a situation, [323] there can be "no
genuine issue as to any material fact," since a
complete failure of proof concerning an essential
element of the nonmoving party's case necessarily
renders all other facts immaterial. The moving
party is "entitled to a judgment as a matter of
law" because the nonmoving party has failed to
make a sufficient showing on en essential element
of her case with respect to which she has the
burden of proof.
Tn cases like the instant one, where the
nonmo vin gperty will bear the burden of proof at
trial on a dispositive issue, a summary judgment
[ * * * * 15] motion may properly be made in reliance
solely on the "pleadings, depositions, answers to
interrogatories, and admissions on file," Such a
motion, whether or not accompanied by affidavits,
will be "made and supported as provided in this
rule," and therefore requires the nonmoving party
the
pleadings
and
by
her
own
to
go
beyond
affidavits, or by the "depositions, answers to
on
and
f ile , "
interrogatories,
admissions
designate "specific facts showing that there is a
genuine issue for trial," 'de do not mean that the
nonmoving party must produce evidence in a form
that would be admissible at trial in order to
avoid summary judgment. Rule 56 (e) permits a
proper summary judgment motion to be opposed by
any kinds of evidentiary materials listed in Rule
56 (c), except the mere pleadings themselves, and
it from this list that one would normally expect
the nonmoving party to make the showing to which
we have referred, t324]
The last two sentences of Rule 56 (e) were
added,as this court indicated in ftdickes,to
disapprove a line of cases allowing a party
opposing Summary Judgment to resist a properly
made
motion
by
reference
only
to
its
pleadings. [326],

28.

The
and

summery
may

judgment rule applies to habeas

be

based

Electric Co.,
Judicial

on

473 F.

Wotice

admitted

matter.

corpus proceedings

See

Luick

2d 1360 (8th Cir. 1973).,

of

FCF

Admissions

#

v.

Graybar

Td. at 1362;

22,

Appendix

see

(R8) ;

08/05/2019. The presentation of the merits were subverted by the
district courts abuse of discretion to not allow the admissions
binding

effect.

See

Henderson

v.

United

States

Tn-re

Guardian

Trust Co., 242 8. R. 608 also see 966 F. 2d 786 (1992).
Tn form and substance a Rule 36 admission is comparable to
an
use

admission
at

in- a

trial,

party,

see

2A

838

(IJ right ed.

can

depend

expense

on

pleading

rather
Barron
1961)
its

than
&

stipulated draft by

to

an

Holtzoff

evidentiary

Fed.

Practice

counsel

admission
and

for

of

a

Procedure

§

unless a petitioner securing an admission

binding

effect,

he

cannot

safely

avoid

the

of preparing to prove the very matters on which he has

secured the admission,
See

or

McSpsrren

provision
resolved

v

and the purpose of the rule is defeated.

Henigan,

emphasizes
on

the

2 25

the

F. Supp. 628(1963) Id. 636-638

importance

merits,while

at

the

of
same

having
time

the

this
action

assuring

each

party that justified reliance on an admission in preparation for
trial
Joseph

will
p.

not
Blitz

operate
Inc.,

to

358

his
F.

prejudice.

2d 686

See

(2d Cir.

cf.

1966).

Moosmsn

This court

in Walker v. Johnson, 312 U. S. 275 (1 941 ) , holds :
There could be situations where " on the facts
admitted, it may appear as a matter of law,
the petitioner is entitled to the Writ and
discharge;" and the Supreme Court and federal
courts thereafter" have acknowledged the power
of the federal district court to discharge a
Habeas Corpus petitioner from State custody

29.

v.

without
conducting on
Evidentiary
Hearing,
when the facts are undisputed and establishes
petitioner ' s
constitutional
denial
of
a
rights.

See Clark v. Johnson, 202 F.3d 760 (5th Cir. 2000). Once summary
judgment was denied,

I filed a

Rule 59

Amend that judgment on' 08/21/2019,
federal

district

Respondent to

that

court,

(e).

Motion to Alter or

ECF # 21. I submitted to the

it

should

not

be

enough

simply urge the court to deny my claims,

for

because

the very mission of the summary judgment procedure is to pierce
the pleadings and assess the proof in order to see whether there
is a genuine need for trial. The federal district courts use of
the

Third

Circuit

themselves

to

justified
purpose

stand

summary

of

the

case

Celotex,

with

in

way
is

permits

of

granting

incompatible

especially

when

the

the

pleadings

an

otherwise

with

nonmoving

the

basic

party

has

sufficient showing on an essential element of

respect

above.

which

the

judgment,

rule,

failed to make a
her

doctrine,

to

which

she

has

the

burden

of

proof.

The motion tolled the time for taking an appeal
R.

until after the rule 59 motion is resolved pursuant to Fed.
4(a) 4A-iv.,

Ap p. Pro c .
not

afforded

motion

an

together

Petition

on

and is appealable as of right but T was

appeal
with

because

the

01/31/2020.,

the

denial
ECF

#

of
27,

district

court

the

of

On

Ulrit

denied

Habeas

02/09/2020.,

I

the

Corpus
filed

a

Notice of appeal together with an application for certificate of
appealability on my other claims,
the

court

Next,

on

ECF # 27;

Appendix (R11), but

did not enter the Notice until 02/20/2020,
03/09/2020,

(entered

30.

by

the

court

on

ECF # 29.

03/17/2020,

I

filed

e

Notice

certificate

of

of

together

appealability

circuit 02/26/20201
0 2/28/202 0_,

appeal

but

the

JEC #5.

on

court

with

my

did

en

other
not

the

presented

settle and or

(b) (2) ; (e) (1 ) ,

Circuit

district

court

until

a motion for

proceedings;

Motion

to

correct/amend the record on appeal with proposed

statement of facts;

district

in

Notice

(entered by the court

on 03/17/2020. I filed in the U.S. district court,
evidence

for

claims,, in • U.S. six

enter

Next, on 03/09/2020,

epplication

EOF # 34,

(2)(b);

court

did

Court of

and

not

pursuant to Fed. R. flpp.

28

U.S.C.

respond

Appeals

§

until

denied my

2254
after

(e)(1).
the

Application for

proc. 10
The

U.S.

U.S.
Sixth

Certificate

of

Appealebility( without even considering my application ) on
TEC M- t>$
06/29/2020, ECF # 35, the court holds for this over-sight, that T

had not enclosed the application with the Notice of Appeal.
foot

note

1 .

However,

the

courts

Docket

Entry

Record

Id.

reflects

the entry on 02/20/2020, with Certificate of service 02/26/2020.
Id.

[5],
The

U.S.

Court

of

decision of another U.S.
and fourteenth

Appeals

decision

conflicts

with

the

Court of Appeals decision on my fourth

amendment claims

in,

Monroe v.

Davis,

712 F.

1106 (7th Cir. 2013), that court holds:
Our decision makes clear that it means more then just
the opportunity to present one's fourth amendment
claim to the state court. Id. 531-32 Hampton, 296 F.
3d at 563-64. A state court process that amounts to a
sham would not constitute a full and fair hearing even
though the petitioner had his day in court on the
claim. Cabrera, 324 F. 3d at 531-32. Evaluating the
adequacy of the hearing thus requires us to give at
least " some attention to how the state court dealt
with the merits" of the claim Id. at 564- (emphasis in
original). But not to much attention as we added in

31.

3d

Cabrara, 324 F. 3d at 531 our role is not to second-quess the
state court rather to assure ourselves that the state court
heard the claim, looked to the right body of case law,
and
rendered an intellectually honest decision. Also see Miranda v.
leibach, 394 F. 3d at
904,997 (7th Cir, 2005),
Because of the fore-mentioned claims

T was not afforded a

full and fair hearing

in the state courts because T was

the

the right to

right to

case,

counsel,

proceedings,
And

evidentiary

denied

confront the witness
for '

hearings

in my

post-conviction

case files and exculpatory video-recorded evidence.

pursuant

states

denied

to

28

U,S,C.

§

of

fact

determination

2254

(e)(1),

on

the

I

have

issue

rebutted

of

my

the

unlawful

arrest/seizure with clear and convincing evidence that T was in
fact

in

police

custody

12/19/2013,

during

their

unreliable

interrogation when T had not been identified in any line-up. See
Appendixes
(2):

1.

T

fourth,

(12)a,;

(1 1 ) a , ;

(10)9,;

(7)a,

and

Peoples

Exhibit

have shown that the state courts mechanisim to which my
sixth and fourteenth amendment claims

could be raised,

presentation of the claims were frustrated by the failure of the
states

mechcnisim

J

and the

judge misconceives

11/28/2016,
v.

especially

that he cannot

Powell,428

exclusionary

U.S,

rule

to

465

where

the

state

court

was

misled

my claims and states

in his

pin point my claims.

Also see Stone

each

of

unlawfully

these

seized

cases

Opinion

considers

evidence

and

does

the
not

necessary apply to my case.
The
federal

fourth amendment

court

ineffective

because

assistance

it

claims

was
of

in my case are cognizable in

raised

counsel

32.

under

the

standard

sixth
for

amendment

failing

to

challenge..,"and abandoning the fourth amendment claims at trial
when he initially raised it in preliminary hearing,"

and under

the

convicted

for

fourth

and

fourteenth

challenging

arrest/seizure,
exclusionary

my
as

rule,)

amendment

right

to

opposed
which

be

to

allows

right

free

an
me

to

to

not

be

from

unlawful

application

of

the

seek

for

the

relief

constitutional violations in Federal habeas Corpus proceedings.

Therefore, I respectfully pray that if only this court would just
methodically review the record in my case, it will see that I did not get a
fair trial or adversarial process throughout in order to prove my innocence.
And to grant Certiorari or any other remedies the court deems necessary and
especially where the state court arbitrary actions violates the U.S. Consti­
tution that this honorable court swore to uphold.

Respectfully submitted,
/

Jessie Willie Green
Date: Janufary 22, 2021

33.

